TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Sustaining Infrastructure Program Is
                 Significantly Improved and a Comprehensive
                    Information Technology Infrastructure
                         Strategy Has Been Developed



                                       December 30, 2010

                              Reference Number: 2011-20-006




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


THE SUSTAINING INFRASTRUCTURE                          implemented a process for identifying,
PROGRAM IS SIGNIFICANTLY                               reviewing, prioritizing, and making decisions on
IMPROVED AND A COMPREHENSIVE                           funding the replacement of aged computer
INFORMATION TECHNOLOGY                                 hardware as well as other critical infrastructure
                                                       needs. The Sustaining Infrastructure Program
INFRASTRUCTURE STRATEGY HAS
                                                       is significantly improved, and agreed-upon prior
BEEN DEVELOPED                                         recommendations are being implemented. For
                                                       example, monthly reports are generated

Highlights                                             showing the number and value of aged
                                                       computer hardware. IRS management uses the
                                                       reports to monitor their progress in replacing the
Final Report issued on                                 aged computer hardware. The appropriate
December 30, 2010                                      executive steering committee is overseeing the
                                                       Sustaining Infrastructure Program. The IRS
Highlights of Reference Number: 2011-20-006            also approved the business case for a new tool
to the Internal Revenue Service Chief                  called the Knowledge, Incident/Problem, Service
Technology Officer.                                    Asset Management system which can associate
                                                       information technology problem tickets with the
IMPACT ON TAXPAYERS                                    aged hardware that caused the problem. The
The Sustaining Infrastructure Program centrally        Knowledge, Incident/Problem, Service Asset
funds the Internal Revenue Service’s (IRS)             Management system implementation involves
information technology infrastructure                  replacing the current inventory and problem
investments primarily to replace computer              management system and is scheduled to be
hardware that has reached or surpassed its             implemented by July 2011. The business case
useful life. The Sustaining Infrastructure             also reported potential benefits resulting from
Program is significantly improved, and                 the Knowledge, Incident/Problem, Service Asset
agreed-upon prior recommendations are being            Management system implementation of
implemented. Taxpayers and IRS employees               $28,825,667.
rely on the information technology infrastructure      In addition, the IRS developed a comprehensive
to ensure satisfaction of tax liabilities, quick       information technology Infrastructure Strategy
resolution of any issues, and a high level of          that will be used to improve access to data,
service to both taxpayers and the Federal              access to information technology services,
Government.                                            responsiveness to demand, optimization, and
WHY TIGTA DID THE AUDIT                                cost effectiveness in a sustainable manner.

This audit was initiated at the request of a           WHAT TIGTA RECOMMENDED
Modernization and Information Technology               TIGTA made no recommendations.
Services organization executive. The overall
objective of this review was to determine the          In their response to the report, IRS
effectiveness of the IRS’s efforts to address the      management was pleased with TIGTA’s
critical issue of sustaining the IRS information       comments and observations acknowledging
technology infrastructure.                             the Sustaining Infrastructure Program had
                                                       significantly improved.
WHAT TIGTA FOUND
The annual baseline amount allocated to the
Sustaining Infrastructure Program is
approximately $150 million, and the program is
centralized to ensure the replacement of the IRS
information technology infrastructure is
addressed corporately. The Sustaining
Infrastructure Program developed and
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              December 30, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       For Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Sustaining Infrastructure Program Is
                                 Significantly Improved and a Comprehensive Information Technology
                                 Infrastructure Strategy Has Been Developed (Audit # 200920026)

 This report presents the results of our review to determine the effectiveness of the Internal
 Revenue Service’s (IRS) efforts to address the critical issue of sustaining the IRS information
 technology infrastructure. This review was part of our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Modernization of the IRS.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant Inspector
 General for Audit (Security and Information Technology Services), at (202) 622-5894.
                             The Sustaining Infrastructure Program Is Significantly
                            Improved and a Comprehensive Information Technology
                                 Infrastructure Strategy Has Been Developed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Sustaining Infrastructure Program Is Significantly Improved, and
          Agreed-Upon Prior Recommendations Are Being Implemented ................. Page 4
          A Comprehensive Information Technology Infrastructure Strategy Has
          Been Developed ............................................................................................ Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measures............................................................... Page 14
          Appendix V – Aged Computer Hardware Inventory Trends ........................ Page 16
          Appendix VI – Glossary of Terms ................................................................ Page 19
          Appendix VII – Management’s Response to the Draft Report ..................... Page 20
         The Sustaining Infrastructure Program Is Significantly
        Improved and a Comprehensive Information Technology
             Infrastructure Strategy Has Been Developed




                    Abbreviations

IESC          Infrastructure Executive Steering Committee
IRS           Internal Revenue Service
ITAMS         Information Technology Asset Management System
KISAM         Knowledge, Incident/Problem, Service Asset Management
MITS          Modernization and Information Technology Services
SIP           Sustaining Infrastructure Program
                            The Sustaining Infrastructure Program Is Significantly
                           Improved and a Comprehensive Information Technology
                                Infrastructure Strategy Has Been Developed




                                               Background

The core technology systems that the Internal Revenue Service (IRS) uses to manage taxpayer
data and facilitate its service and enforcement work were groundbreaking when first created.
However, they have not kept pace with rapid innovations in technology and the explosion in
online interaction. This limits the new capabilities the IRS can deliver to its employees and
taxpayers. One of the objectives of the IRS Strategic Plan for Fiscal Years 2009–2013 is to
“Build and deploy advanced information technology systems, processes, and tools to improve
IRS efficiency and productivity.” One of the strategies to help achieve this objective is to
continually monitor the technology portfolio to ensure it supports core operating needs,
upgrading physical infrastructure1 when appropriate. The management, maintenance, and
ongoing enhancement of the information technology
infrastructure are central to the successful accomplishment
of the IRS’s mission “to provide America’s taxpayers            The management, maintenance,
top-quality service.”                                            and ongoing enhancement of
                                                                  the information technology
The Sustaining Infrastructure Program (SIP) centrally          infrastructure are central to the
funds IRS information technology infrastructure                  successful accomplishment
                                                              of the IRS’s mission “to provide
investments primarily to replace computer hardware that       America’s taxpayers top-quality
has reached or surpassed its useful life. The annual                       service.”
baseline amount allocated to the SIP is approximately
$150 million, and the program is centralized to ensure the
replacement of the IRS information technology infrastructure is addressed corporately.
In addition, IRS executives saw a need for a more comprehensive Modernization and
Information Technology Services (MITS) approach to defining the overall information
technology infrastructure strategy. A MITS organization executive described the issue by
stating, “The strategy should lay out guiding principles, establish a set of guard rails within
which all parts of the MITS organization should operate, and do so in a manner that is aligned
with other IRS business and technology strategy initiatives.” Taxpayers rely on the
infrastructure to ensure reliable satisfaction of their tax liabilities and quick resolution of any
issues that might arise as they meet those obligations. IRS employees rely on the information
technology infrastructure as they work to ensure a high level of service to both taxpayers and the
Federal Government.




1
    See Appendix VI for a glossary of terms.
                                                                                            Page 1
                       The Sustaining Infrastructure Program Is Significantly
                      Improved and a Comprehensive Information Technology
                           Infrastructure Strategy Has Been Developed



Our prior audit report2 regarding aged computer hardware included five recommendations to
improve the process for replacing the aged computer hardware. The IRS agreed to four of the
five recommendations and reported that corrective actions for those four recommendations were
complete. This audit followed up on the four recommendations the IRS agreed to implement.
    •   Recommendation 1: The Chief Information Officer should implement procedures to
        improve the accuracy and completeness of the inventory data on the Information
        Technology Asset Management System (ITAMS) and periodically prepare an updated
        aged computer hardware estimate, including current replacement cost, based upon
        reliable and current information. This audit reviewed the actions taken to prepare an
        updated aged computer hardware estimate. The accuracy and completeness of the
        inventory data will be reviewed in a future audit.
        IRS Corrective Action: The IRS stated it would identify discrepancies in the ITAMS
        database for correction and develop processes to improve and maintain the accuracy of
        the ITAMS data. It would also implement a process to produce quarterly estimates of the
        aged computer hardware based on ITAMS data, along with current estimates of the
        replacement costs.
    •   Recommendation 2: The Chief Information Officer should improve the integration of
        asset/inventory management with incident and problem management so problems related
        to old computer hardware issues can be readily identified and the IRS can report a more
        accurate assessment of the negative impact of aging computer hardware.
        IRS Corrective Action: The IRS stated it would develop a business case for using a
        software tool to improve the integration of asset/inventory management with incident and
        problem management. The business case would be presented to the appropriate
        MITS Governance Board for approval to implement.
    •   Recommendation 4: The Chief Information Officer should ensure the End of Life
        Equipment Replacement activity is included in the Infrastructure Executive Steering
        Committee (IESC) governance process.
        IRS Corrective Action: The IRS stated it would implement a governance model that
        includes oversight from the IESC.
    •   Recommendation 5: The Chief Information Officer should ensure a performance
        measurement process providing periodic monitoring and reporting of SIP
        accomplishments is established for current and future efforts to address the aging
        computer hardware issue.



2
 Efforts to Update Aging Computer Hardware Are Underway, but Program Improvements Are Needed to Minimize
Risks (Reference Number 2008-20-002, dated November 6, 2007).
                                                                                                 Page 2
                      The Sustaining Infrastructure Program Is Significantly
                     Improved and a Comprehensive Information Technology
                          Infrastructure Strategy Has Been Developed



       IRS Corrective Action: The IRS stated it would implement outcome measures and a
       monitoring process to report on the IRS’s progress in reducing its aged asset inventory.
This review was performed at the MITS organization in New Carrollton, Maryland, during the
period January through September 2010. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                      The Sustaining Infrastructure Program Is Significantly
                     Improved and a Comprehensive Information Technology
                          Infrastructure Strategy Has Been Developed




                                Results of Review

The Sustaining Infrastructure Program Is Significantly Improved, and
Agreed-Upon Prior Recommendations Are Being Implemented
The SIP developed and implemented a process for identifying, reviewing, prioritizing, and
making decisions on funding the replacement of aged computer hardware as well as other critical
infrastructure needs. In Fiscal Year 2010, the SIP adopted a “strategic expansion” mission to
begin implementing short- to medium-term improvements to the SIP process to solicit, review,
and fund strategic investment requests that cover all infrastructure, not just aged computer
hardware. The “strategic expansion” includes an Investment Management Plan for funding and a
holistic plan for addressing key organizational priorities while moving the IRS’s infrastructure
along an agreed-upon strategic direction. In addition, the program improvements and the
corrective actions to the prior recommendations have enabled SIP management to reduce the
aged computer hardware inventory from 40.3 percent in Fiscal Year 2007 to 28.6 percent in
Fiscal Year 2009 (see Appendix V).

Recommendation 1: The quantity of aged computer hardware is updated monthly
The IRS implemented a process to produce the Obsolescence Comparison Report, which groups
aged computer hardware by inventory categories such as laptops, printers, and servers. The
report also includes information on the hardware’s years of useful life, unit replacement cost
(hereafter, replacement cost will be referred to as value), number and value of items in use and in
stock, and the ratio/percentage of aged computer hardware to total computer hardware in terms
of the number and value of the items.
The quantities of all computer hardware and aged computer hardware are updated monthly and
the report is provided to the IESC and the End User Equipment and Services organization for
review. However, the aged computer hardware inventory value and the standards established for
determining when computer hardware is considered aged (i.e., past its useful life) were last
reviewed and updated in Fiscal Year 2006. Management stated they consider several factors in
determining useful life standards, including book value, warranty, maintenance, contract
upgrades, and updates cost. We compared the IRS useful life standards to industry useful life
standards and determined the IRS useful life standards were comparable to the industry useful
life standards.
In May 2009, SIP management initiated a review of the computer hardware inventory categories,
values, and useful life standards to ensure the information is current and relevant. In June and
July 2010, SIP management reported the status of their review to the IESC. Based on the results

                                                                                            Page 4
                     The Sustaining Infrastructure Program Is Significantly
                    Improved and a Comprehensive Information Technology
                         Infrastructure Strategy Has Been Developed



of the review, IRS management decided there was no need to change the useful life standards in
Fiscal Year 2010. The IESC is reviewing the results information to determine what, if any,
actions are needed to revise the inventory categories, values, and useful life standards in
Fiscal Year 2011.

Recommendation 2: The IRS is in the process of developing the capability to
associate information technology problems with aged computer hardware
The IRS approved the business case for a new tool called the Knowledge, Incident/Problem,
Service Asset Management (KISAM) system, which can associate information technology
problem tickets with the aged hardware that caused the problem. The KISAM system
implementation involves replacing the current inventory and problem management system and is
scheduled to be fully implemented by July 2011.
The business case and the IESC stated that implementation of the new inventory and problem
management system will address our prior recommendations. The business case also reported
potential benefits resulting from KISAM system implementation of $28,825,667. Our analysis
allocated the benefits as follows: $12,395,037 in Cost Operational and Run Savings and
$16,430,630 in Revenue Collection Increases.

Recommendation 4: The Sustaining Infrastructure Program has executive
oversight
In February 2008, the IESC began to and currently provides oversight of the SIP. The IESC
meeting minutes document the SIP presentations, activities, and issues presented as well as
decisions made by the IESC regarding the SIP. For example:
   •   The March 19, 2008, meeting minutes state that the Enterprise Services organization
       implemented the SIP (i.e., became responsible for the program) in the first quarter of
       Fiscal Year 2008.
   •   The July 30, 2009, meeting minutes state that the IESC requested that the SIP provide a
       list of projects for infrastructure that should come under the IESC for review.
   •   The June 17, 2010, meeting minutes show the status of the SIP activities continue to be
       reported to the IESC.
   •   The July 19, 2010, meeting minutes state that the Committee voted to require SIP
       projects whose status changed from green to red provide a mitigation plan and date for
       returning the project back to green status. A project considered to be in green status is on
       target and will probably meet scope, schedule, and budget objectives. A project
       considered to be in red status needs executive attention and will probably not meet scope,
       schedule, and budget objectives.


                                                                                            Page 5
                      The Sustaining Infrastructure Program Is Significantly
                     Improved and a Comprehensive Information Technology
                          Infrastructure Strategy Has Been Developed



In addition to placing the SIP under the governance of the IESC, the IRS implemented an
investment management process to review and prioritize investment requests for replacing aged
computer hardware. All such investment requests must be approved by the IESC before they are
implemented.
Approved investment projects are entered into an automated system called ProSight, which is
used to document the status and key information of the project. We reviewed nine SIP projects
and found the following:
   •   Two projects were not included in ProSight.
   •   Two projects had incomplete data in ProSight. For example, one project did not have any
       schedule information, but the status for this key performance indicator was green. IRS
       management stated that when data for key performance indicators is not entered, the
       ProSight system defaults the status for that indicator to green.
   •   Two projects had not been updated monthly in ProSight. For example, as of
       August 17, 2010, one project did not show when it was last updated and the other project
       was last updated April 13, 2010.
Management action: In July 2010, IRS management conducted a review of the information in
ProSight and identified projects that were not in ProSight or were missing key data. As a result,
management is in the process of scheduling meetings with each project team to discuss the
project and to ensure project information in ProSight is updated monthly as required.

Recommendation 5: A performance measurement process has been
implemented
IRS management established outcome measures and implemented the monthly Obsolescence
Comparison Report to monitor and report on its progress in reducing its aged computer hardware
inventory. The outcome measures established are the annual goals for reducing the aged
computer hardware inventory in terms of number and value. The Fiscal Year 2010 goal is to
reduce the number of items in the aged computer hardware inventory to 24 percent and the value
of the aged computer hardware to 39 percent of the total computer hardware inventory. As of
July 1, 2010, the actual quantity and value of aged inventory were 29.5 percent and 42.0 percent,
respectively. See Appendix V for the number and value of the aged computer hardware
inventory from Fiscal Years 2007 through 2010 (as of July 1, 2010).
Office of Management and Budget Circular A-50, Audit Followup, dated September 29, 1982,
states that audit followup is an integral part of good management and that corrective action taken
by management on findings and recommendations is essential to improving the effectiveness and
efficiency of Federal Government operations. It also states that one of the principle provisions of
this circular is to emphasize the importance of monitoring the implementation of resolved audit
recommendations in order to assure that promised corrective actions are actually taken.

                                                                                            Page 6
                          The Sustaining Infrastructure Program Is Significantly
                         Improved and a Comprehensive Information Technology
                              Infrastructure Strategy Has Been Developed



In addition, the Clinger-Cohen Act of 19963 requires each agency to ensure senior management
is provided with timely, verifiable data as one of the elements in maximizing the value and
assessing and managing the risk of information technology acquisitions. To have a successful
information technology investment management process, the agency must ensure management
decisions are based on complete and current information. In fact, informed management
decisions can occur only if accurate, reliable, and up-to-date information is part of the
decision-making process. The Government Performance and Results Act of 19934 was enacted
by Congress to hold Federal Government agencies accountable for achieving business results by
requiring agencies to adopt performance measures and set goals to assess performance.

A Comprehensive Information Technology Infrastructure Strategy Has
Been Developed
In March 2010, the IRS developed a comprehensive information technology Infrastructure
Strategy. The Infrastructure Strategy focuses on the core infrastructure technologies that are
needed in order to support the current and future IRS goals and objectives. The Infrastructure
Strategy will be used to improve access to data, access to information technology services,
responsiveness to demand, optimization, and cost effectiveness in a sustainable manner. Its goal
is to achieve a centralized Service Oriented Infrastructure through technology maturation,
standardization, consolidation, and use of shared resources.
The Infrastructure Strategy includes the results of a gap analysis that identified the steps needed
to achieve a centralized Service Oriented Infrastructure. Two projects supporting the
Infrastructure Strategy have been implemented: Server Consolidation and Virtualization and
Phase I Storage Refresh. The Server Consolidation and Virtualization project will enable the
IRS to move away from replacing physical servers on a one for one basis to replacing multiple
servers with one server. The goal of the Phase I Storage Refresh project is to replace,
consolidate, and upgrade a significant portion of existing storage devices (many had reached
their end of life in Fiscal Years 2006 and 2009). Both projects are expected to generate cost
savings.
Office of Management and Budget Circular A-130, Management of Federal Information
Resources, requires agencies to prepare and maintain a portfolio of major information systems
that monitors investments and prevents redundancy of existing or shared information technology
capabilities. Agencies must develop or use an Enterprise Architecture Framework. The


3
  Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
4
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 7
                     The Sustaining Infrastructure Program Is Significantly
                    Improved and a Comprehensive Information Technology
                         Infrastructure Strategy Has Been Developed



Framework must guide strategic and operational Information Resource Management Strategic
planning. The Framework must also contain the relationship between mission needs,
information technology capabilities, and information content. Agencies are also required to
prioritize key systems.




                                                                                       Page 8
                      The Sustaining Infrastructure Program Is Significantly
                     Improved and a Comprehensive Information Technology
                          Infrastructure Strategy Has Been Developed



                                                                                     Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the IRS’s efforts to
address the critical issue of sustaining the IRS information technology infrastructure. To
accomplish this objective, we:
I.     Determined the efficiency and effectiveness of the SIP governance process.
       A. Determined the governance process over the SIP and individual initiatives by
          interviewing Enterprise Services organization personnel and reviewing
          governance-related documentation (e.g., IESC meeting minutes, Executive Steering
          Committee charters, and briefing materials) to assess the actions of the IESC in
          overseeing the SIP and whether other governance bodies provided oversight of the
          SIP.
       B. Determined the efficiency and effectiveness of the investment decision-making and
          project implementation process (i.e., project identification, prioritization, approval,
          and monitoring).
II.    Determined the efficiency and effectiveness of the SIP’s efforts to replace critical aged
       computer hardware.
       A. Interviewed SIP personnel to discuss the aging infrastructure problem and the status
          of the overall SIP and the five current individual initiatives established to mitigate the
          IRS operational risks.
       B. Interviewed SIP personnel to discuss their risk mitigation process and the risks they
          have identified (e.g., funding and staffing). We obtained documentation of their risk
          assessments.
       C. Reviewed project documentation for the SIP and individual initiatives, including the
          current project schedule, key milestones, and planned completion dates to determine
          whether the program and initiatives are on schedule and within budget. Our review
          for this step and the next step was limited to the individual initiatives that were in the
          ProSight database and had an overall red status.
       D. Reviewed status reports for the SIP and the individual initiatives.
       E. Reviewed documentation for the planned funding for the SIP and individual
          initiatives for Fiscal Year 2008 through Fiscal Year 2010, including actual
          expenditures for each year.


                                                                                              Page 9
                       The Sustaining Infrastructure Program Is Significantly
                      Improved and a Comprehensive Information Technology
                           Infrastructure Strategy Has Been Developed



        F. Reviewed the controls over the procurement process to assess contracting fraud risk.
        G. Interviewed SIP personnel to determine how they decided on the following: a) the
           useful life for each type of equipment and b) the acceptable percentage of aged
           inventory to carry annually.
        H. Performed Internet research to determine whether private industry and the Federal
           Government have established average years of useful life for computer hardware and
           a standard acceptable percentage of aged computer hardware.
III.    Determined the status of the Information Technology Infrastructure Strategy.
        A. Interviewed SIP personnel and reviewed documentation to determine the status of the
           Information Technology Infrastructure Strategy projects and whether the 5-year goal
           will be met.
        B. Interviewed SIP personnel and reviewed documentation to determine whether the
           process used to develop the Infrastructure Strategy was reasonable.
IV.     Determined the reliability of the Obsolescence Comparison Reports as the mechanisms to
        report aged assets.
        A. Interviewed IRS personnel to determine how the reports are used and who uses them.
        B. Interviewed IRS personnel and obtained supporting documentation to validate the
           reasonableness of the process to gather the information needed for the reports.
        C. Identified and trended the aged inventory for Fiscal Years 2007 through 2010.
V.      Determined whether effective corrective actions have been implemented to address prior
        Treasury Inspector General for Tax Administration recommendations.1
        A. Recommendation 1: Implement procedures to improve the accuracy and
           completeness of the inventory data on the ITAMS and periodically prepare an
           updated aged computer hardware estimate, including current replacement cost, based
           upon reliable and current information.
        B. Recommendation 2: Improve the integration of asset/inventory management with
           incident and problem management so problems related to old computer hardware
           issues can be readily identified and the IRS can report a more accurate assessment of
           the negative impact of aging computer hardware.
        C. Recommendation 4: Ensure the End of Life Equipment Replacement activity is
           included in the IESC governance process.


1
 Efforts to Update Aging Computer Hardware Are Underway, but Program Improvements Are Needed to Minimize
Risks (Reference Number 2008-20-002, dated November 6, 2007).
                                                                                                Page 10
                          The Sustaining Infrastructure Program Is Significantly
                         Improved and a Comprehensive Information Technology
                              Infrastructure Strategy Has Been Developed



         D. Recommendation 5: Ensure a performance measurement process providing periodic
            monitoring and reporting of SIP accomplishments is established for current and future
            efforts to address the aging computer hardware issue.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the MITS organization’s policies and
procedures for implementing an effective SIP to address the critical issue of sustaining the IRS
information technology infrastructure. We evaluated these controls by interviewing management
and by reviewing policies and procedures such as the Internal Revenue Manual, Federal
guidance such as the Clinger-Cohen Act of 19962 and Office of Management and Budget
Circulars, and relevant supporting documentation.




2
 Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                            Page 11
                     The Sustaining Infrastructure Program Is Significantly
                    Improved and a Comprehensive Information Technology
                         Infrastructure Strategy Has Been Developed



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott Macfarlane, Director
Danny Verneuille, Director
Tina Wong, Lead Auditor
George Franklin, Senior Auditor
Ashley Guthrie, Auditor
Anthony Morrison, Program Analyst




                                                                                     Page 12
                   The Sustaining Infrastructure Program Is Significantly
                  Improved and a Comprehensive Information Technology
                       Infrastructure Strategy Has Been Developed



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, End User Equipment and Services OS:CTO:EU
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                 Page 13
                      The Sustaining Infrastructure Program Is Significantly
                     Improved and a Comprehensive Information Technology
                          Infrastructure Strategy Has Been Developed



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings – Funds Put to Better Use – Potential; $12,395,037 over a 6-year period
    (see page 4).
•   Increased Revenue – Potential; $16,430,630 over a 6-year period (see page 4).

Methodology Used to Measure the Reported Benefit:
The business case for the KISAM system reported a potential return on investment of
$28,825,667 (shown as net present value and excluded expenses) over 6 years. The return on
investment was attributed to two factors: 1) Cost Operational and Run Savings and 2) Revenue
Collection Increases due to improved system availability. The 6-year benefit for each factor
prior to subtracting the expenses is shown in Figure 1, Column B. The business case did not
breakdown the return on investment by the two factors. Therefore, we used the benefits of the
two factors to determine a ratio to be applied to the $28,825,667 return on investment to
determine the amount of each outcome measure (see Figure 1, Column E).




                                                                                           Page 14
                        The Sustaining Infrastructure Program Is Significantly
                       Improved and a Comprehensive Information Technology
                            Infrastructure Strategy Has Been Developed



                        Figure 1: Computation of Outcome Measures

            A.                        B.                 C.               D.                  E.
          Benefits              Total Benefits       Percentage          Total          Distribution of
                                 by Type for          of Total         Return on          Return on
                                 Fiscal Years         Benefits*       Investment        Investment by
                                  2009–2014                          (Net Present        Benefit Type
                                                                       Value)**        (Columns C x D)

 Cost Operational
 and Run Savings                  $43,718,600            43%         $28,825,667          $12,395,037

 Revenue Collection
 Increases                        $58,358,800            57%         $28,825,667          $16,430,630

 Total Benefits Flow
                                                                           —                   —
 (before expenses)               $102,077,400           100%

 Total Return on
 Investment (Net                       —                  —                —              $28,825,667
 Present Value)**
Source: Our calculations are based on data from the IRS Information Technology Service Delivery Management
KISAM Return on Investment Model Overview, dated June 5, 2008.
* Percentages were rounded.
** Total benefits less total expenses.




                                                                                                    Page 15
                         The Sustaining Infrastructure Program Is Significantly
                        Improved and a Comprehensive Information Technology
                             Infrastructure Strategy Has Been Developed



                                                                                               Appendix V

          Aged Computer Hardware Inventory Trends

The IRS tracks its aged computer hardware inventory by both the number and value
(i.e., replacement cost) of the aged hardware compared to fiscal year goals (Figure 1). Figures 2
through 5 present the information in a chart format that shows the trends. The fiscal year goals
are established each year by the SIP based on the number and value of computer hardware that
are or will become aged during the fiscal year and the available budget to purchase new
computer hardware. The fiscal year goals are approved by the IESC.
         Figure 1: Aged Computer Hardware Compared to Fiscal Year Goals

                                                               Aged Ending        Fiscal Year       Fiscal Year
                         Total Ending Aged Ending               Inventory            Goals             Goals
    Fiscal Year           Inventory        Inventory           (Percentage)        (Number)        (Percentage)
Fiscal Year 2007          (as of September 30, 2007)
Obsolescence %
                             250,076            100,821            40.3%              N/A               N/A
(Number of items)
Obsolescence %
                         $1,035,349,580     $414,215,388           40.0%              N/A               N/A
(Value)
Fiscal Year 2008           (as of September 2, 2008)*
Obsolescence %
                             229,382            78,940             34.4%             63,768           27.8%
(Number of items)
Obsolescence %
                          $982,725,574      $348,920,115           35.5%         $307,593,105         31.3%
(Value)
Fiscal Year 2009           (as of September 30, 2009)
Obsolescence %
                             238,573            68,297             28.6%             50,816           21.3%
(Number of items)
Obsolescence %
                          $922,539,286      $314,288,473           34.1%         $294,290,032         31.9%
(Value)
Fiscal Year 2010         (as of July 1, 2010)
Obsolescence %
                             242,308            71,377             29.5%             58,154           24.0%
(Number of items)
Obsolescence %
                          $946,690,851      $397,663,028           42.0%         $369,209,432         39.0%
(Value)
Source: Our analysis of the Obsolescence Comparison Report.
* September 2, 2008, is the latest date used in the Obsolescence Comparison Report to monitor and track aged
asset progress in Fiscal Year 2008.



                                                                                                        Page 16
                      The Sustaining Infrastructure Program Is Significantly
                     Improved and a Comprehensive Information Technology
                          Infrastructure Strategy Has Been Developed



        Figure 2: Number of Aged Computer Hardware Items Compared
                to the Fiscal Year Goal (presented as a number)

   300,000

   250,000
                                                                        Total number of computer
   200,000                                                              hardware items
                                                                        Number of aged computer
   150,000                                                              hardware items
                                                                        Fiscal Year Goal
   100,000

    50,000
                                                                          * Fiscal Year 2007 did not have
                                                                          a Fiscal Year Goal.
          0
              Fiscal Year    Fiscal Year   Fiscal Year   Fiscal Year      * Fiscal Year 2010 Actual
                 2007           2008          2009          2010          Inventory and Aged Inventory
                                                                          is through July 1, 2010.




Source: Our analysis of the Obsolescence Comparison Report.

                Figure 3: Value of Aged Computer Hardware Items
              Compared to the Fiscal Year Goal (presented in dollars)

   $1,200,000,000

   $1,000,000,000                                                        Total value of computer
                                                                         hardware items
     $800,000,000
                                                                         Value of aged computer
                                                                         hardware items
     $600,000,000
                                                                         Fiscal Year Goal
     $400,000,000

     $200,000,000
                                                                         * Fiscal Year 2007 did not have
                                                                         a Fiscal Year Goal.
                $0
                      Fiscal Year Fiscal Year Fiscal Year Fiscal Year    * Fiscal Year 2010 Actual
                         2007        2008        2009        2010        Inventory and Aged Inventory
                                                                         is through July 1, 2010.




Source: Our analysis of the Obsolescence Comparison Report.



                                                                                                    Page 17
                     The Sustaining Infrastructure Program Is Significantly
                    Improved and a Comprehensive Information Technology
                         Infrastructure Strategy Has Been Developed



              Figure 4: Number of Aged Computer Hardware Items
           Compared to the Fiscal Year Goal (presented as a percentage)

    120%

    100%                                                             Total number of computer
                                                                     hardware items
     80%                                                             Percentage of aged
                                                                     computer hardware items
     60%                                                             Fiscal Year Goal


     40%
                                                                     * Fiscal Year 2007 did not have
     20%                                                             a Fiscal Year Goal.

                                                                     * Fiscal Year 2010 Actual
      0%
                                                                     Inventory and Aged Inventory
             Fiscal Year Fiscal Year Fiscal Year Fiscal Year         is through July 1, 2010.
                2007        2008        2009        2010


Source: Our analysis of the Obsolescence Comparison Report.

           Figure 5: Value of Aged Computer Hardware Items Compared
                to the Fiscal Year Goal (presented as a percentage)

    120%

    100%                                                              Total number of computer
                                                                      hardware items
     80%                                                              Percentage of aged
                                                                      computer hardware items
     60%                                                              Fiscal Year Goal


     40%
                                                                     * Fiscal Year 2007 did not have
     20%                                                             a Fiscal Year Goal.

                                                                     * Fiscal Year 2010 Actual
      0%
                                                                     Inventory and Aged Inventory
             Fiscal Year   Fiscal Year   Fiscal Year   Fiscal Year   is through July 1, 2010.
                2007          2008          2009          2010


Source: Our analysis of the Obsolescence Comparison Report.



                                                                                                Page 18
                     The Sustaining Infrastructure Program Is Significantly
                    Improved and a Comprehensive Information Technology
                         Infrastructure Strategy Has Been Developed



                                                                                  Appendix VI

                                  Glossary of Terms

Term                               Definition
Client                             Software that allows the user to access a service from a server
                                   computer (e.g., a server computer on the Internet).

Information Technology Asset       The official IRS inventory system that enables tracking,
Management System                  reporting, and management of computer equipment.

Infrastructure                     The fundamental structure of a system or organization. The
                                   basic, fundamental architecture of any system (electronic,
                                   mechanical, social, political) determines how it functions and
                                   how flexible it is to meet future requirements.

Knowledge, Incident/Problem,       The system that will maintain the complete inventory of
Service Asset Management           information technology and non-information technology
                                   assets. It will also be the reporting tool for problem
                                   management with all IRS-developed applications.

ProSight                           A database tool designed with specific tracking, reporting, and
                                   decision-making features used to monitor projects.

Server                             A network device that provides service to the network users
                                   by managing shared resources.

Service Oriented Infrastructure    A service-driven infrastructure that provides a common and
                                   shared set of technologies that enable business processes to be
                                   added and changed readily.

Virtualization                     Software that separates an application from the underlying
                                   physical hardware on which it runs. It allows a single piece of
                                   hardware such as a server to support many applications,
                                   thereby running the software more efficiently and at lower
                                   cost.




                                                                                           Page 19
       The Sustaining Infrastructure Program Is Significantly
      Improved and a Comprehensive Information Technology
           Infrastructure Strategy Has Been Developed



                                                    Appendix VII

Management’s Response to the Draft Report




                                                           Page 20
 The Sustaining Infrastructure Program Is Significantly
Improved and a Comprehensive Information Technology
     Infrastructure Strategy Has Been Developed




                                                     Page 21
